HHS/OIG-Audit-"Review of Cash Management Procedures Used by the University of Iowa,"(A-07-01-00136)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Cash Management Procedures Used by the University of Iowa," (A-07-01-00136)
February 19, 2002
Complete
Text of Report is available in PDF format (716 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audit of the cash management
procedures used by the University of Iowa (University) to control funds paid
by the Payment Management System (PMS) during the three year period ended June
30, 2000.  We found that the University did not have adequate policies
and procedures in place to monitor daily cash balances and to precisely calculate
interest earned on positive daily cash balances.  In monitoring the daily
cash balances, the University did not consider (1) actual dates of electronic
payments,  (2) expenses exceeding authorized grant amounts, (3) year-end
adjustments,  (4) actual dates of deposits, and (5) overhead costs as
incurred.  Also, the University was not able to reconcile cash balances
used to calculate remitted interest to those amounts reported on the Federal
Cash Transaction Reports.  We determined that the amount of interest
remitted by the University for the Department of Health and Human Services
(DHHS) funds was less than the amount of interest that should have been remitted
if appropriate procedures had been used.  Although the difference between
the amount of interest remitted and our estimates was not significant, we have
concerns that the deficiencies we noted could cause future interest remittances
to be inaccurate.